No. 20-18
_____________
IN THE SUPREME COURT OF THE UNITED STATES

Arthur Gregory Lange,

Petitioner,
v.
California,

Respondent.

On Writ of Certiorari
to the Court of Appeal of California,
First Appellate District

MOTION FOR DIVIDED ARGUMENT

Pursuant to Rule 28.4 of the Rules of this Court, petitioner Arthur Lange
respectfully moves for divided argument in this case. Mr. Lange requests that he and
respondent the State of California each be allocated fifteen minutes of argument time.
The State consents to this motion.
1.

This case presents the question whether pursuit of a person whom a

police officer has probable cause to believe has committed a misdemeanor
categorically qualifies as an exigent circumstance sufficient to allow the officer to
enter a home without a warrant. The California Court of Appeal concluded that it
does, and upheld Mr. Lange’s criminal conviction on that basis. Pet. App. 18a-22a.
1

This Court granted certiorari to resolve the conflict between courts that have adopted
that categorical rule and courts that instead apply a case-by-case exigency analysis
to determine whether pursuit of a suspected misdemeanant justifies a warrantless
home entry. Pet. 8-14; see Stanton v. Sims, 571 U.S. 3, 6-7 (2013) (per curiam).
2.

In this Court, the State has agreed with Mr. Lange that “the Court

should reject [the] categorical rule” applied below and instead adopt “a case-specific
exigency analysis.” BIO 4-5. The Court therefore appointed an amicus curiae to brief
and argue the case in support of the judgment below.
3.

In cases in this posture, the Court typically allows a petitioner and

respondent that agree on the question presented to divide thirty minutes of argument
time between themselves, leaving thirty minutes for the Court-appointed amicus
curiae. See, e.g., Holguin-Hernandez v. United States, 140 S. Ct. 447 (2019) (No. 187739); Smith v. Berryhill, 139 S. Ct. 1285 (2019) (No. 17-1606); Culbertson v.

Berryhill, 139 S. Ct. 304 (2018) (No. 17-773); Welch v. United States, 136 S. Ct. 1407
(2016) (No. 15-6418). The same approach is appropriate here for two reasons.
First, Mr. Lange and the State have materially different interests. Mr. Lange’s
interest is in securing the reversal of his conviction in this particular case. The State,
in contrast, has a broader interest in the answer to the question presented, which will
govern the conduct of state law-enforcement officers and could affect the admissibility
of evidence in other cases to which the State is a party.
Second, although Mr. Lange and the State agree on the answer to the question
presented, their reasons for reaching that conclusion differ in some respects. The
State, for example, contends that this Court’s precedents make pursuit of a suspected
2

felon a categorical exception to the warrant requirement (Br. 12-15); Mr. Lange
disagrees (Br. 24-26). Allowing both the State and Mr. Lange to participate in the
oral argument would thus materially assist the Court in its consideration of the case.
4.

For the foregoing reasons, Mr. Lange respectfully requests that the

Court grant the motion for divided argument.

Dated: December 17, 2020

Respectfully submitted,

Brian H. Fletcher

Counsel of Record
STANFORD LAW SCHOOL
SUPREME COURT
LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-3345
bfletcher@law.stanford.edu

3

